   Federal Election Commission

    Office of Inspector General




             Final Report

Review of Outstanding Recommendations
          as of December 2013

            February 2014


      Assignment No. OIG-14-02
                      Office of Inspector General’s
                Review of Outstanding Recommendations
                        December 2013 Report

The Office of Inspector General (OIG) semiannually provides to the Commission the status of
outstanding recommendations. We reviewed seven audits and inspections that had a total of 96
recommendations still outstanding. A total of 20 recommendations were closed. Three of the seven
audits had no recommendations closed during this reporting period.




                         Noteworthy Accomplishments
   •   The OIG was able to close the last eight recommendations from the 2009 Follow-up of the
       Transit Benefit program
   •   The last outstanding recommendation from the 2011 Inspection of the Kastle Key Program
       was closed
   •   The final three open recommendations from the 2012 Quality Assessment of the Audit
       Division are closed
   •   Tremendous progress has been made by the OCFO under the leadership of the Acting CFO to
       close the outstanding recommendations from the 2011 Follow-up Audit of Procurement and
       Contract Management



                                      OIG Concerns
   •   FEC needs to improve the accountability of management officials to ensure compliance with
       all aspects of Directive 50: Audit Follow-up
   •   Lack of progress by ITD in addressing outstanding recommendations for the Audit of the
       FEC’s Property Management Controls and the Inspection of the FEC’s Disaster Recovery
       Plan and Continuity of Operations Plan


More detailed information regarding the OIG concerns can be found in the remainder of this report
along with the audit follow-up meetings/communications, report overview, and background. At the
end of the report, we have attached the memo we sent to the Staff Director requesting a written
statement accepting the risks involved in not implementing certain OIG recommendations. We have
been informed by the Deputy CIO that these recommendations are not going to be implemented.
Audit Follow-up Meetings/Communications
Closed Recommendations

   A. Audit Follow-up Review of the FEC’s Employee Transit Benefit Program

       The June 2013 Review of Outstanding Audit Recommendations report identified eight (8)
       open recommendations. During the period ending December 31, 2013, the OIG was able to
       confirm that standard operating procedures, frequently asked questions, and training to reflect
       the new FEC Directive 54 on the transit benefit program have been fully implemented. As a
       result, we were able to close the remaining eight (8) open recommendations.


   B. Inspection of the FEC’s Kastle Key Program

       The June 2013 Review of Outstanding Recommendations report noted one outstanding
       recommendation for the Inspection of the FEC’s Kastle Key Program. During this follow-up
       review period, the OIG conducted follow-up testing on the remaining open
                                                                                   Congratulations
       recommendation to verify if the Administrative Services Division            to ASD for their
       adequately implemented this recommendation. The follow-up results           commitment to
       identified that the remaining recommendation was properly implemented,      internal controls.
       and all findings and recommendations for this inspection have been
       officially closed by the OIG. The OIG appreciates the ASD’s commitment to improving
       internal controls and their responsiveness to the OIG during the follow-up process.


   C. Quality Assessment Audit of the Audit Division

       The June 2013 Review of Outstanding Recommendations report noted Audit Division
       management had taken corrective action that resulted in eight (8) of the
       eleven (11) recommendations being closed. However, there was not enough     Audit Division
       evidence to confirm that three (3) recommendations were fully implemented.  has strong
       Thus three (3) remained open. In November 2013, OIG met with the Audit      commitment to
       Division Program Manager to determine if sufficient evidence was available  a quality audit
       related to the open recommendations. Based on the OIG review of             process.
       supporting documentation, we were able to close the remaining three (3)
       recommendations.

       The OIG would like to recognize the Audit Division management for making it a priority of
       the division to address the findings included in the audit. We specifically would like to give
       special recognition to the Audit Division Program Manager for her dedication to promptly
       and adequately facilitate implementation of the audit recommendations. These efforts by the
       Audit Division have demonstrated a strong commitment to ensure a quality audit process.


_________________________________________________________________________________
Office of Inspector General’s Review of Outstanding Recommendations December 2013 Report    2|Page
Open Recommendations

    A. Audit of the Commission’s Property Management Controls

        The Audit of the Commission’s Property Management Controls (Property Audit) audit report
        was released in March 2010. The responsibility of implementing the audit recommendations
        for the Property Audit is shared by the Administrative Services Division (ASD) and the
        Information Technology Division (ITD). The OIG has worked with the ASD Managers 1 and
        the Deputy Chief Information Officer of Operations (Deputy CIO) to receive any updates
        regarding the implementation of audit recommendations. The Property Audit report identified
        36 audit recommendations; ASD is responsible for the implementation of 10
        recommendations, and the ITD 26 of the 36 recommendations.

        In the OIG’s June 2013 outstanding recommendations report, we reported that ASD
        completed the implementation of all the outstanding recommendations that were                        ITD
                                                                                                             Management
        assigned to their office and the related findings have been officially closed.
                                                                                                             states no
        However, for several follow-up review periods, the OIG has expressed concern with                    corrective
        ITD’s lack of progress in implementing their outstanding recommendations to                          actions
        improve their management controls over FEC property. The OIG contacted ITD                           completed.
        management this review period, and was notified that management had not
        implemented any corrective actions since the last review period.

        As reported in our prior audit, ITD has a non personnel budget of approximately
        seven million dollars ($7 million), the largest budget (excluding personnel costs) in                Management
                                                                                                             should be
        the entire agency, and the OIG believes that management should be more focused to
                                                                                                             more focused
        ensure that the proper controls are in place to reduce the risk of any excessive cost,               to ensure
        waste, or abuse to the agency and its programs. The OIG has reported in other audits                 proper
        (2010 Follow-up Audit of Privacy and Data Protection; FEC’s Annual Financial                         controls are
        Statement Audits), that IT controls are not adequate, however ITD has failed to                      in place.
        properly address the reported recommendations that are intended to improve the
        agency’s IT controls.

        ITD management has decided not to implement the remaining outstanding recommendations
        for the Audit of the Commission’s Property Management Controls. Therefore, a written
        response from the Staff Director confirming that management agrees to accept the risk
        of not implementing the remaining recommendations is required in order for the OIG to
        consider closing the remaining outstanding recommendations, and conclude audit follow-up.
        Please see attachment 1 for Management’s Acceptance of Risk for Outstanding
        Recommendations for a list of the seven outstanding recommendations along with their
        potential risk to the agency if not implemented.




1
 The OIG has worked with one acting ASD manager and two permanent ASD managers since the completion of the
Property Audit due to frequent turnover in this position.
_________________________________________________________________________________
Office of Inspector General’s Review of Outstanding Recommendations December 2013 Report           3|Page
   B. 2010 Follow-up Audit of Privacy and Data Protection

       For the 2010 Follow-up Audit of Privacy and Data Protection, the OIG’s June 2013 report
       identified 30 open recommendations. During this review period, the OIG noted that the Co-
       Chief Privacy Officer’s did not provide a CAP to the Commission in November
       2013 in accordance with Directive 50. The OIG contacted the Staff Director’s              CAP provided
       Office, who manages the CAPs submitted by FEC management to the Commission,               late to
       and confirmed that a CAP was not provided. The OIG contacted the Co-Chief                 Commission.
       Privacy Officers via email on December 18, 2013 regarding audit follow-up, but did
       not receive a response. At the conclusion of the OIG’s review period, the Office of the Staff
       Director identified that the Privacy Team provided their November 2013 CAP update to the
       Commission on December 23, 2013, nearly a month late.

       The OIG reviewed the CAP submitted to the Commission and noted the memo stated that
       “…the Privacy Team closed recommendations 8b and 10c of the corrective action plan.”
       However, the OIG reviewed and verified the closures of these two items during the prior
       review period and reported them closed in the June 2013 report. In addition, the Privacy
       Team stated that they, “…completed task items for recommendations 4a and 4c, and
       anticipates that these recommendations will soon be closed.” Due to the late submission and
       update of the Privacy CAP, the OIG was not able to review or verify the work completed. The
       OIG will review the items noted in the memo to the Commission regarding activity completed
       for recommendations 4a and 4c, and any additional corrective actions during the next review
       period.

   C. 2010 Follow-up of Procurement and Contract Management

       The June 2013 Review of Outstanding Recommendations report noted 17 outstanding
       recommendations. At the request of the Office of the Chief Financial Officer
                                                                                            OCFO making
       (OCFO), the OIG met with the acting Chief Financial Officer (CFO) and other
                                                                                            progress on
       OCFO staff members in November 2013 prior to their reporting to the                  addressing
       Commission. The purpose of the meeting was to discuss the remaining outstanding      recommendations.
       audit recommendations, as well as additional progress made since the June 2013
       meeting. Subsequent to the meeting, the OIG reviewed documentation obtained
       during the meeting to support corrective actions related to some of the open recommendations
       and updated the OIG comment section of the CAP. The OIG also met with the procurement
       contractor in December 2013 to discuss additional progress made since November and to
       confirm what recommendations would be officially closed by the OIG. As of December 31,
       2013, the OIG has closed an additional eight (8) recommendations. The OIG would like to
       note that the OCFO, under the leadership of the acting CFO, has been working
       diligently over the past year to address the outstanding recommendations. As a result, 20
       of 29 total recommendations originally reported in the 2010 Follow-up Audit of Procurement
       and Contract Management have been closed over the past 12 months.




_________________________________________________________________________________
Office of Inspector General’s Review of Outstanding Recommendations December 2013 Report   4|Page
   D. Inspection of the FEC’s Disaster Recovery Plan and Continuity of Operations Plans

       The OIG initiated the Inspection of the FEC’s Disaster Recovery Plan and Continuity of
       Operations Plans (COOP Inspection) due to:
          • repeat findings related to the agency’s contingency plan in the FEC’s annual financial
              statement audit since FY 2004;
          • the agency hiring a contractor for approximately $277,000 in FY 2008 to assist with
              the development of contingency plans for the FEC program offices that where never
              fully tested; and
          • management’s non-compliance with applicable laws and regulations for properly
              training FEC personnel on their COOP plans.

       Since the inspection report was released in January 2013, this review period is the first
       follow-up for the COOP Inspection. However, the OIG did not verify implementation of any
       corrective actions because management has not made any progress. In November 2013, the
       Deputy Chief Information Officer stated in a memo to the Commission that “There have been
       no updates since the last circulation [of the CAP] due to budget constraints but it is our goal
       to revise and update the current plan during FY 2014.”

       The OIG is concerned with the lack of progress and commitment by the                        Management
       Information Technology Division to address the numerous problems found                      aware of
       during our inspection. Further, the OIG would like to note that our office has              issues for
       reported on weaknesses in this area since FY 2004 in the agency’s annual financial          several years.
       statement audits. Management has been aware of the agency’s issues for several years,
       and neglected to promptly implement corrective actions.




_________________________________________________________________________________
Office of Inspector General’s Review of Outstanding Recommendations December 2013 Report    5|Page
The table below summarizes the progress made by FEC management during the past six months and
the outstanding recommendations as of December 2013.



                                                                                            2
          Title & Report Date                                                               Total Open
                                            Total Outstanding           Total Closed
                 of OIG                                                                       as of
                                            Recommendations             and Verified
           Audits/Inspection                                                              December 2013
                                             as of June 2013              by OIG

     Audit Follow-up Review of the
     FEC’s Employee Transit                           8                       8                   0
     Benefit Program (7/2009)
     Audit of the Commission’s
     Property Management Controls                     7                       0                   7
     (3/2010)
     2010 Follow-up Audit of
     Privacy and Data Protection                     30                       0                   30
     (3/2011)
     2010 Follow-up Audit of
     Procurement and Contract                        17                       8                   9
     Management (6/2011)
     Inspection of the FEC’s Kastle
                                                      1                       1                   0
     Key Program (12/2011)
     Quality Assessment Audit of
                                                      3                       3                   0
     the Audit Division (9/2012)
     Inspection of the FEC’s
     Disaster Recovery Plan and
                                                     30                       0                   30
     Continuity of Operations Plans
     (1/2013)
                                                                                                  76
                          Total Outstanding Recommendations




2
 “Total Open as of December 2013” column includes recommendations that management has disagreed with or has not
adequately implemented, and the OIG concludes that these recommendations are still ‘open.’
_________________________________________________________________________________
Office of Inspector General’s Review of Outstanding Recommendations December 2013 Report               6|Page
OIG Concerns

As reported in our June 2013 Review of Outstanding Recommendations report, the FEC              Accountability
needs to improve the accountability of management officials necessary to ensure                 of management
compliance with all aspects of Directive 50: Audit Follow-up. It is essential that the          officials needs
Commission not only requires management to report on a semi-annual basis the status of          improvement.
outstanding recommendations, but also develops a process to ensure the Audit Follow-up
Officials are being held accountable for implementing outstanding recommendations in a timely
manner that are beneficial to the agency’s mission and will improve agency programs. Without the
accountability necessary to ensure corrective actions are taken by management, the mission of the
agency is consistently operating under weaker controls that can increase cost, expose the agency to
risks, and increase the potential of fraud, waste, and abuse to agency programs.
                                                                                              Pattern of lack of
In addition, the OIG is concerned with the lack of progress by the Information                progress by ITD
Technology Division to address outstanding recommendations for the Audit of the FEC’s         on outstanding
Property Management Controls and the Inspection of the FEC’s Disaster Recovery Plan           recommendations.
and Continuity of Operations Plan.




Report Overview
This report provides the Commission and management the results of the Office of Inspector
General’s (OIG) review of outstanding OIG recommendations as of December 2013.

As required by the Inspector General Act of 1978, as amended, the Office of Inspector General (OIG)
is responsible for conducting audits of the Federal Election Commission’s (FEC) programs and
operations. In addition to conducting and supervising audits, the OIG also has the responsibility to
conduct audit follow-ups to ensure that management has effectively implemented OIG
recommendations. Audit follow-up, to include the timely implementation of audit recommendations
by FEC management, is required by Office of Management and Budget Circular A-50, Audit Follow-
up, as revised, and FEC Directive 50: Audit Follow-up.

In order to work effectively with FEC management in adhering to FEC Directive 50, and to ensure
continuous monitoring and adequate and timely audit resolution, the OIG communicates with
management at least semiannually to discuss the status of outstanding OIG recommendations. If
management has implemented any corrective actions, the OIG schedules a meeting with management
to discuss the implementation of the corrective action(s), and the OIG then reviews evidence of the
corrective action (i.e. new/updated policies, procedures, and processes to improve internal controls).

Based on management’s availability, the OIG strives to schedule these meetings to provide
management with the results of our review prior to management’s reporting deadlines to the
Commission in May and November. These meetings can provide management with timely OIG
feedback for their semiannual reports to the Commission and enables the OIG to keep abreast of
_________________________________________________________________________________
Office of Inspector General’s Review of Outstanding Recommendations December 2013 Report    7|Page
management’s progress. The semiannual meetings are also intended to assist the audit follow-up
official in following provisions 4 through 6 of Directive 50, which are listed as follows:

       “(4) Respond in a timely manner to all audit reports;
        (5) Engage in a good faith effort to resolve all disagreements; and
        (6) Produce semi-annual reports that are submitted to the agency head.”

FEC management is required by FEC Directive 50 to provide semiannual status reports (May and
November) to the Commission of their progress concerning outstanding OIG recommendations. The
official status (open/closed) of OIG recommendations is determined by the OIG once the OIG has
verified that management has adequately implemented the corrective actions. The Inspector General
can also make a decision to close recommendations or seek resolution from the Commission for
recommendations where the OIG and management disagree. Lastly, the number of outstanding
recommendations is reported to the Commission and Congress in the OIG’s Semiannual Reports to
Congress.


Background
At the conclusion of each OIG audit and inspection, it is management’s responsibility to develop a
corrective action plan (CAP). The CAP identifies the plan management has developed to address the
OIG’s findings and recommendations. The CAP should detail the following:

   1. assignment of Audit Follow-up Official (AFO), who is responsible for overseeing the
      corrective action;
   2. OIG finding(s);
   3. OIG recommendation(s);
   4. detailed corrective action to implement the OIG’s recommendation(s);
   5. FEC staff person with responsibility to implement each task; and
   6. expected completion dates.

Once management drafts the CAP, the OIG then reviews their CAP and provides comments to
management regarding the sufficiency of their planned corrective actions to address the OIG’s
findings. Management reviews the OIG’s comments, finalizes the CAP, and then provides the final
CAP to the Commission with a courtesy copy to the OIG.

FEC Directive 50 requires management to:

       “(3) Conduct regular meetings with the Inspector General throughout the year to follow-up
       on outstanding findings and recommendations, and include reports of these meetings in the
       written corrective action plan and semi-annual reports required to be presented to the
       Commission…;”




_________________________________________________________________________________
Office of Inspector General’s Review of Outstanding Recommendations December 2013 Report   8|Page
                                                                                Attachment 1




                  FEDERAL ELECTION COMMISSION
                  WASHINGTON, D.C. 20463
                  Office of Inspector General




MEMORANDUM

TO:           Alec Palmer
              Staff Director/Chief Information Officer

FROM:         Lynne A. McFarland
              Inspector General

SUBJECT:      Risk Acceptance Statement: December 2013 Review of Outstanding
              Recommendations Report

DATE:         February 10, 2014

The Office of Inspector General (OIG) is finalizing the December 2013 Review of
Outstanding Recommendations Report to be released February 2014. As you know, the
OIG’s outstanding recommendations report details the results of the OIG’s follow-up
reviews for audit and inspections that have outstanding recommendations for six months
or more.

As of December 2013, the Audit of the FEC’s Property Management Controls has several
recommendations that have been outstanding for over three years. The OIG has reported
on our concern with the lack of progress from ITD management since June 2012, and our
soon to be released report on outstanding recommendations reiterates the OIG’s concern.
The audit follow-up official has stated during OIG follow-up reviews that no further
corrective actions will be implemented to address the remaining recommendations and
management considers the recommendations closed. Therefore, the OIG’s December
2013 Review of Outstanding Recommendations Report is requesting a written statement
from the Staff Director accepting the risk of the outstanding recommendations in order
for the OIG to officially close the open recommendations. A list of the outstanding
recommendations, and the risks associated with not implementing the recommendations,
is attached with this memo and will also be included in the final report.

In addition, the OIG is aware that ITD is in the process of replacing the Blackberry
devices with iPhones. The OIG would like to note that the outstanding recommendations
are applicable to the iPhone and any other cellular phone device the agency may procure.
Based on the OIG’s knowledge of the agency’s lack of controls in this area, the OIG
believes the roll-out of the new iPhone devices would be the opportune time for
management to implement the remaining outstanding recommendations to improve the
agency’s controls.
The OIG is requesting a written statement from the Staff Director by March 3, 2014 in
response to accepting the risk of the outstanding recommendations for the Audit of the
Property Management Controls in order for the OIG to properly plan for the next audit
follow-up review period. If you decide to implement one or more of the outstanding
recommendations, based on the risks outlined in this memorandum, please let me know
by March 3, 2014 so that I can schedule a review of the corrective action(s) at a future
date.

Thank you.

Attachment




                                            2
Management’s Acceptance of Risk for the Audit of the FEC’s Property Management
Controls Outstanding Recommendations

The Office of Inspector General is requesting a written statement from the Staff Director
in regards to the remaining open recommendations from the Audit of the FEC’s Property
Management Controls that are listed below. In order to close these recommendations and
conclude the follow-up process, the Staff Director should state that management will
accept the risk of not implementing the outstanding recommendations. Below are the
outstanding recommendations and their associated risks.

   1. Recommendation 1h: Document the ITD re-authorization process of PCD
      [personal communication device/Blackberry] users in ITD's Policy 58-4.4
          • Risk: Waste of agency funding.
                  The re-authorization of PCD users is an internal control to help
                   ensure that staff provided a Blackberry continue to have a need for
                   the device. Staffs’ job responsibilities change over time, and their
                   need for a Blackberry can change. Therefore, it is important to
                   periodically review the staff assigned a Blackberry to make sure
                   the expenditure of funds for the Blackberry service is still required.
                   As ITD is the office with oversight of the Blackberry devices,
                   ITD’s refusal to periodically re-authorize the users means ITD may
                   be unaware if the agency is wasting funds on FEC personnel or
                   contractors who no longer have a business need for an FEC issued
                   Blackberry.

   2. Recommendation 1k: Provide the policies and procedures for the use of
      Blackberry devices to all users when issuing the Blackberry.
         • Risk: Abuse of government property.
                 Blackberry devices issued to authorized users have the potential to
                    be misused (excessive personal use, downloading of unauthorized
                    applications, viewing prohibited information on a government
                    issued device, etc.) if users are not aware of polices and procedures
                    for using an FEC issued Blackberry.

   3. Recommendation 2a: All unassigned Blackberry devices should be suspended or
      service should be terminated if the device can not be immediately transferred to
      another user (no active spares kept in ITD). At the time of our inspection, ITD
      retained a minimum of 10 inactive spare devices (many of the spares were left
      active incurring monthly charges) and a spare Subscriber Identity Module (SIM)
      card (portable memory chip). If required, a device could be activated within 24
      hours.
          • Risk: Fraud and no internal control.
                  In a prior audit follow-up, management stated that they have
                     decreased the number of spare devices on hand to three. Although
                     the OIG agrees that three spare devices is more reasonable than the
                     previous 10 spares, the OIG reviewed devices listed as unassigned
                     (spare) on the agency’s AT&T monthly bill and they showed
                     activity (in use) and were listed as assigned to FEC personnel on
                                           3
                   the inventory list. As a result, ITD is not maintaining accurate
                   records of the unassigned Blackberry devices. Because these
                   devices are not properly tracked, management runs the risk of
                   potential fraud (stolen devices, unauthorized activity) because ITD
                   does not maintain proper records of spare devices.

4. Recommendation 2f: Blackberry user information should be kept up to date and
   adjusted in a timely manner on the ITD master Blackberry listing and the AT&T
   Premier website for employee separations and new assignment of devices.
       • Risk: Fraud and no internal control.
                Because these devices are not properly tracked, management runs
                   the risk of potential fraud (stolen devices) because ITD does not
                   maintain proper inventory records, and it’s likely these devices
                   would not be detected as missing.

5. Recommendation 2g: Management should educate Blackberry users of all features
   that incur additional cost to the agency, such as: roaming charges that result when
   employees place calls outside AT&T service areas; texting; directory assistance;
   unauthorized software, and voice use over the pooled plan limits.
       • Risk: Waste of agency funding and abuse of government property.
                The agency is at risk of wasting funds on unauthorized device
                   features that cost additional money beyond the agency’s plan.
                   There is also potential for abuse by users in using their agency
                   issued devices for excessive personal use. Both instances have
                   been identified by the OIG and reported to management during the
                   initial audit and in prior follow-up reviews.

6. Recommendation 3: ITD should implement a form and process such as the NIST
   Sample Sanitization Validation form, to record sanitization (wiping) of devices,
   disposal and/or destruction, as appropriate.
       • Risk: Data breaches and fraud.
               Old devices that are no longer in use run the risk of containing
                  sensitive information from emails/attachments if management has
                  no record that the device has been properly sanitized prior to
                  transferring the device as surplus to the General Services
                  Administration. In addition, if the device is to be destroyed and
                  there is no record of the destruction, there is a risk that the device
                  can be removed from the agency and used for personal use or
                  prohibited activity (selling an agency issued device).




                                          4
7. Recommendation 3e: Segregate the following program functions among three or
   more ITD staff: Purchasing/ordering and recording assets; Authorization for
   purchases, including devices received free under upgrade promotion; Receipt,
   storage, and distributing of assets; and Destruction or disposal of surplus PCDs.
       • Risk: Waste of agency funds and fraud.
           Having one person to oversee all purchasing, recording, and storage
              responsibilities for Blackberry devices presents the risk of a) wasting
              agency funds on additional devices that are purchased for prohibited
              activity; b) abuse of agency devices being used as personal use; and c)
              creating fraudulent documentation and records to prevent the detection
              of prohibited activity of agency issued devices.




                                        5
                         Federal Election Commission
                           Office of Inspector General




    Fraud Hotline
    202-694-1015




      or toll free at 1-800-424-9530 (press 0; then dial 1015)
      Fax us at 202-501-8134 or e-mail us at oig@fec.gov
      Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463




Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to
fraud, waste, abuse, and mismanagement of agency programs and operations. Individuals
who contact the OIG can remain anonymous. However, persons who report allegations are encouraged
to provide their contact information in the event additional questions arise as the OIG evaluates the
allegations. Allegations with limited details or merit may be held in abeyance until further specific details
are reported or obtained. Pursuant to the Inspector General Act of 1978, as amended, the Inspector
General will not disclose the identity of an individual who provides information without the consent of that
individual, unless the Inspector General determines that such disclosure is unavoidable during the course
of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                            Together we can make a difference.
